                       Limited Official Use




          Taxpayer Remittances Were Generally
        Safeguarded Within the Ogden Submission
         Processing Site; However, Some Security
                   Vulnerabilities Exist

                           May 2005

              Reference Number: 2005-30-086




The Treasury Inspector General for Tax Administration (TIGTA) has
designated this audit report as Limited Official Use (LOU) pursuant
to Chapter III, Section 2 of the Treasury Security Manual (TD P 71-10)
entitled, “Limited Official Use Information and Other Legends.”
Because this document has been designated LOU, it may only be
made available to those officials that have a need to know the
information contained within this report in the performance of their
official duties. This report must be safeguarded and protected from
unauthorized disclosure; therefore, all requests for disclosure of this
report must be referred to the Disclosure Section within the TIGTA’s
Office of Chief Counsel.




                       Limited Official Use
                                     Limited Official Use
                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Richard J. Dagliolo, Director
John J. Chiappino, Audit Manager
Stephen A. Wybaillie, Lead Auditor
Scott D. Critchlow, Senior Auditor
Marge Filippelli, Senior Auditor
Daniel A. Zaloom, Senior Auditor




                                       Limited Official Use                             Page 2
